TA

C@OCKLE

. E-Mail Address:
Le ga 1 Bri e€ fs contact@cocklelegalbriefs.com

2311 Douglas Street
Omaha, Nebraska 68102-1214

Est. 1923
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850
No. 20-1262
MARYSUSAN WARD,
Petitioner,
v.
LOUISVILLE METRO GOVERNMENT,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF IN OPPOSITION in
the above entitled case complies with the typeface requirement of Supreme Court Rule 33.1(b),
being prepared in New Century Schoolbook 12 point for the text and 10 point for the footnotes,
and this brief contains 5434 words, excluding the parts that are exempted by Supreme Court Rule
33.1(d), as needed.

Subscribed and sworn to before me this 12th day of May, 2021.
lam duly authorized under the laws of the State of Nebraska to administer oaths.

hen ction, | MOTARY-State of Nebraska x. 4 4 if
RENEE J. hen ction, | draw *

My Comm. Exp. September 5, 2023
Notary Public Affiant

 

40993
